                                                                              OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 5) Version 5.0a
                  Reporting OIG:
              Month Ending Date: 10/31/2010

                                                           Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau       Recovery Act TAFS     Award Type         US Indicator       Total Obligations      Total Gross       Direct or          Ordering TAFS
No.                                                                                                                    Outlays       Reimbursable
      Amtrak ‐ OIG              (69‐0724 2009 \       Formula and Block       Y ‐ US              $623,956            $570,531 
                                2013) Amtrak ‐ OIG ‐       Grant
  1                             Recovery Act
  2
  3
  4
  5
  6
  7
  8

                                                                           Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau         FY 2009 Non‐        Total FY 2009      Total FY 2009    FY 2010 Non‐Recovery    Total FY 2010    Total FY 2010    FY 2011 Non‐Recovery  Total FY 2011    Total FY 2011 
No.                               Recovery Act TAFS      Obligations       Gross Outlays          Act TAFS           Obligations     Gross Outlays          Act TAFS         Obligations     Gross Outlays
  1 Amtrak ‐ OIG                Amtrak - OIG                  $228,694           $228,465 Amtrak - OIG                    $550,937         $550,936 Amtrak - OIG                   $39,926          $39,926
  2
  3
  4
  5
  6
  7
  8




                                                                                                                                                      OIG Monthly Reporting Template110410.xls Page 1
                                                                                                                 OIG Recovery Act Monthly Report



                                                            Monthly Update Report Data (sheet 2 of 5) Version 5.0a
                                                                     Reporting OIG: 0

                                                               Month Ending Date: 10/31/2010


                                                                                                                                   Fiscal Year 2009

                                                                                               Monetary Results ‐Investigations              Monetary Results ‐ Audits, Inspections, Reviews* 


                                                                                                 Recoveries (FY 09):                              Questioned Costs (FY 09):



                                                                                        Forfeitures/Seizures (FY 09):                            Unsupported Costs (FY 09):



                                                                                                                                           Recommendations for Better Use 
                                                                                          Estimated Savings (FY 09):
                                                                                                                                                        of Funds (FY 09):




                                                                                                                                   Fiscal Year 2010

                                                                                               Monetary Results ‐Investigations              Monetary Results ‐ Audits, Inspections, Reviews* 


                                                                                                 Recoveries (FY 10):                              Questioned Costs (FY 10):



                                                                                        Forfeitures/Seizures (FY 10):                            Unsupported Costs (FY 10):



                                                                                                                                           Recommendations for Better Use 
                                                                                          Estimated Savings (FY 10):
                                                                                                                                                        of Funds (FY 10):


                                                                                                                                   Fiscal Year 2011

                                                                                               Monetary Results ‐Investigations              Monetary Results ‐ Audits, Inspections, Reviews* 


                                                                                                 Recoveries (FY 11):                              Questioned Costs (FY 11):



                                                                                        Forfeitures/Seizures (FY 11):                            Unsupported Costs (FY 11):



                                                                                                                                           Recommendations for Better Use 
                                                                                          Estimated Savings (FY 11):
                                                                                                                                                        of Funds (FY 11):


                                                                                                                            Cumulative Since 2/17/2009

                                                                                               Monetary Results ‐Investigations              Monetary Results ‐ Audits, Inspections, Reviews* 


                                                                                           Recoveries (cumulative):       $0.00              Questioned Costs (cumulative):       $0.00 


                                                                                                Forfeitures/Seizures 
                                                                                                                          $0.00             Unsupported Costs (cumulative):       $0.00 
                                                                                                       (cumulative):



                                                                                                  Estimated Savings                        Recommendations for Better Use 
                                                                                                                          $0.00                                                   $0.00 
                                                                                                       (cumulative):                               of Funds (cumulative):




* These data include Federal Audits, Inspections, and Reviews only                                                                                                                               OIG Monthly Reporting Template110410.xls Page 2
                                                                                                              OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 3 of 5) Version 5.0a
        Reporting OIG: 0
    Month Ending Date: 10/31/2010

                            FTE Working on Recovery
                                                                                                                                                                  Testimonies:
      Fiscal Year              2009            2010                  2011              Cumulative
       Newly Hired FTE 
                              0.38               4.80                 0.41                   5.59                                                         Provided (monthly):       0
         (cumulative):

FTE Funded by Recovery 
                              0.38               4.80                 0.41                   5.59                                                      Provided (cumulative):       0
 Act Funds (cumulative):

     FTE Not Funded by 
    Recovery Act Funds        0.74               3.92                 0.25                   4.91
          (cumulative):


                                                                                                                                                     Audits / Inspections / Evaluations / 
              Complaints                                Whistleblower Reprisal Allegations                            Investigations                                                               Training / Outreach
                                                                                                                                                                   Reviews
             Monthly Data                                         Monthly Data                                        Monthly Data                              Monthly Data                          Monthly Data

                                                                                                                                                                                                   Training Sessions 
              Received:         0                                       Received:             0                Opened (this month):        0            Initiated (this month):     0                                     0
                                                                                                                                                                                                          Provided:

                                                                                                              Active (as of the end of               In Process (as of the end 
                                                                        Accepted:             0                                            2                                        4           Individuals Trained:      0
                                                                                                                          the month):                          of the month):
                                                                                                                                                             Completed Final 
                                                                                                                                                                                                   Hours of Training 
                                                                                                              Closed without Action:       0                  Published Work        0                                     0
                                                                                                                                                                                                          Provided:
                                                                                                                                                                     Products:
                                                                                                                                                              Priority Interim 
                                                                                                                                                                                                  Outreach Sessions 
                                                                                                               Prosecution Declined:       0                  Published Work        0                                     0
                                                                                                                                                                                                        Conducted:
                                                                                                                                                                     Products:

                                                                                                             Referred for Alternative                      Unpublished Work 
                                                                                                                                           0                                        0
                                                                                                                          Resolution:                             Products*:

                                                                                                                         Convictions, 
                                                                                                                  Settlements, Pleas,      0                     QCRs Issued:       0
                                                                                                                          Judgments:

   Cumulative Data Since 2/17/2009                      Cumulative Data Since 2/17/2009                     Cumulative Data Since 2/17/2009           Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009
                                                                                                                                                             Completed Final 
                                                                                                                                                                                                   Training Sessions 
              Received:         1                                       Received:             0               Closed without Action:       0                 Published Work         1                                     0
                                                                                                                                                                                                          Provided:
                                                                                                                                                                   Products:
                                                                                                                                                              Priority Interim 
                                                                        Accepted:             0                Prosecution Declined:       0                  Published Work        0            Individuals Trained:     0
                                                                                                                                                                     Products:

                                                                                                             Referred for Alternative                      Unpublished Work                        Hours of Training 
                                                                                                                                           0                                        3                                     0
                                                                                                                          Resolution:                             Products*:                              Provided:

                                                                                                                         Convictions, 
                                                                                                                                                                                                  Outreach Sessions 
                                                                                                                  Settlements, Pleas,      0                     QCRs Issued:       0                                     6
                                                                                                                                                                                                        Conducted:
                                                                                                                          Judgments:

                                                                                                                   Cumulative Total:       0               Cumulative Total:        4




              *These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.                                                 OIG Monthly Reporting Template110410.xls Page 3
                                              OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 5) Version 5.0a
      Reporting OIG: 0
  Month Ending Date: 10/31/2010

       No.                     OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1           Continued review of Amtrak's Engineering's Dept in Managing JPM contract and ARRA projects
        2           Preparing reports and working papers for reviews
        3           Continue review Police and Security Dept's management of ARRA
        4           Continue review of Amtrak's Plan to Bring Stations into ADA Compliance
        5
        6
        7
        8
        9
       10

       No.                          OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1
        2
        3
        4
        5
        6
        7
        8
        9
       10




                                                                                            OIG Monthly Reporting Template110410.xls Page 4
                                                         OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 5 of 5) Version 5.0a
  Reporting OIG: 0
   Month Ending 10/31/2010

                                                                     TRAINING ACTIVITIES
                                                                                                                                           Hours of
                                                                                                                Length of                  Training
                                               Target                            Training Location   Date of                 Number of                    Cost of
     No.             Type of Training                        Title of Training                                   Training                 Provided
                                              Audience                              (City, State)    Training               Participants                  Training
                                                                                                                 (hours)                   (length x
                                                                                                                                         participants)
      1                                                                                                                                               0
      2                                                                                                                                               0
      3                                                                                                                                               0
      4                                                                                                                                               0
      5                                                                                                                                               0
      6                                                                                                                                               0
      7                                                                                                                                               0
      8                                                                                                                                               0
      9                                                                                                                                               0
     10                                                                                                                                               0
     11                                                                                                                                               0
     12                                                                                                                                               0
     13                                                                                                                                               0
     14                                                                                                                                               0
     15                                                                                                                                               0
                                                                                                                 TOTAL                 0              0

                                           OUTREACH ACTIVITIES
                                              Number of
                                            Organizations                           Outreach
                   Organization to which                    Description of                            Date of
     No.                                    Represented at                        Location (City,
                    Outreach Provided                          Outreach                              Outreach
                                              Outreach                                State)
                                               Session
      1
      2
      3
      4
      5
      6
      7
      8
      9
     10


                                                                                                                OIG Monthly Reporting Template110410.xls Page 5
